i           2
8           3
1           :
                                        Closeout for M98 100029
1               i
    I

                   In October 1998, a National Science Foundation (NSF) employee1 forwarded an
        allegation of possible improper duplicate publication by an engineer (the subject).* In
         1993, the subject and a co-author3 (who served as the subject's doctoral thesis advisor)
        published the original manuscript (the original publication) in a peer-reviewed journal
        (the first j ~ u r n a l ) .In
                                     ~ 1996, the subject once again published a near identical copy of the
        manuscript (the second publication) in a different peer-reviewed journal (the second
        j ~ u r n a l ) .A
                         ~ close examination of these two publications revealed substantial similarities
        in the written text, figures, and figure captions. The only difference between these
        publications was that the second publication included an additional, self-contained
        experiment which did not change the scope or conclusions of the study. The co-author
        and the original publication were not referenced in the second publication.

                Although the second publication states that NSF supported this research project,
        in the course of an inquiry, our office learned that NSF did not directly support the
        subject's research. At the time of the research project, the subject and the co-author of
        the original manuscript were employed as NSF program directors.

                According to the publication policies of the first journal, "only original
        contributions that have not been previously published or submitted elsewhere [may be
        accepted] for publication." According to the publication policies of the second journal,
        "submission of a paper will be held to imply that it contains original unpublished work
        and is not being submitted
                                 .. for publication elsewhere."

                In response to a letter from our office, the subject described the reference to the
        co-author in the first publication as a gift authorship. In addition, the subject pointed to
        the self-contained experiment in the second publication as a defense to the allegation of
        duplicate publication. These statements were not a satisfactory response to our questions
        concerning his failure to reference the original publication or cite the original co-author
        in the second publication.

               Our office requested an assessment of the ethical issues of this alleged duplicate
        publication from a member of the scientific community.6 According to this scientist, "the
        publication of these two articles constitutes a serious ethical problem."

                In response to a letter from our office, the Editor-in-Chief of the first journal
        concluded the subject's failure to reference the original publication in the second
        publication "did not conform to the normal publication practices adhered to by the [first
        journal's] editorial staff." The Editor-in-Chief believed the first journal should ask the
        second journal to acknowledge the original publication. This acknowledgement should
        be written by the subject.

        '   [footnote redacted]
            [footnote redacted]
            [footnote redacted]
        4
            [footnote redacted]
            [footnote redacted]
        6
            [footnote redacted]

                                                Page 1 of 2
                              Closeout for M98 100029


        Our office sent two letters to the second journal editor to determine the second
journal's perspective on this alleged duplicate publication. The second journal editor
never responded.

        We agree with the scientist and first journal editor that the subject's duplicate
publication constitutes a "serious ethical problem" that deviates from acceptable
practices. However, we could not justify additional review or recommend a finding of
misconduct in science in light of the absence of clearly articulated community standards
for duplicate publications. In the final analysis, we believe the decision of the first
journal editor to request a written acknowledge in the second journal will protect NSF's
interest in preserving scientific integrity. Accordingly, we sent a letter to the subject
recommending the submission of a written acknowledgement for the second journal.

       This case is closed and no further action will be taken by our office;


Cc:    Integrity, IG




                                     Page 2 of 2
